                                        National Science Foundation
                                            4201 Wilson Boulevard
                                           Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              September 30, 2010

TO:                Greg Steigerwald, Acting Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Dr. Brett M. Baker /s/
                   Assistant Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-10-1-011, Audit of Consortium of Ocean
         Leadership’s Accounting System; and NSF OIG Audit Report No. OIG-10-1-012,
         Audit of Proposed Budget for the Ocean Observatories Initiative


We contracted with the Defense Contract Audit Agency (DCAA), Chesapeake Bay Branch
Office, to perform audits of Consortium of Ocean Leadership’s (COL) accounting system and
COL’s $386.42 million proposed budget for the construction of the Ocean Observatories
Initiative (OOI), which will be performed over a six-year period from September 2009 through
August 2014 (FY 2009 through FY 2014) 1.

The purpose of the OOI project is to provide an interactive, globally distributed and integrated
observatory network of ocean and seafloor sensors to enable next-generation studies throughout
the global ocean.

Background

The Joint Oceanographic Institutions (JOI) and the Consortium for Oceanographic Research and
Education (CORE) merged their staffs and operations as of May 31, 2007 2. The consolidated
organization is now known as Consortium for Ocean Leadership, Inc. COL is a Washington, DC
based nonprofit organization that manages ocean research and education programs. COL
currently has     employees and revenue for FYs 2006 through 2008 were approximately
                                       respectively. COL’s accounting period is from October 1
through September 30.




1
  COL submitted the OOI Proposal (NSF Proposal No. 0957938) under NSF Solicitation No. 09-29.
2
  OIG issued Audit Report No. OIG-10-1-014, Audit Report on Joint Oceanographic Institutions’ FY 2006 (12
months) and FY 2007 (8 months) Incurred Costs, dated September 30, 2010, which reports the results of the audit of
incurred costs claimed by JOI in FYs 06-07 up to the date of the merger.
NSF entered into Cooperative Support Agreement (CSA) No. OCE-0964093 with COL and
initially funded the OOI project with $105.93 million of American Recovery and Reinvestment
Act (ARRA) funds in September 2009. NSF expects to award the remaining $280.49 million for
the OOI project with Major Research Equipment and Facilities Construction (MREFC) funds.
NSF initially awarded the OOI project with $5.91 million and an additional $14.28 million in
MREFC funds in FYs 2009 and 2010, respectively. NSF expects to award the balance of
MREFC funds in FYs 2011 through FY 2014.

The objectives of this audit were to:

1.    Assess the adequacy of COL's accounting system to properly accumulate and bill costs
     under NSF awards, determine whether COL adequately accumulates, segregates and reports
     the use of ARRA funds 3, determine whether COL adequately monitors its subawardees’
     compliance with Federal requirements

2. Examine the OOI construction proposal to determine if COL’s proposed budget was prepared
   in accordance with applicable federal requirements, including the Cost Accounting Standards
   (CAS) and if the proposed costs are acceptable as a basis to negotiate a fair and reasonable
   price. This included performing audit tests at two of COL’s major subawardees, the
   University of Washington (UW) and Woods Hole Oceanographic Institute (WHOI).

3. Assess the adequacy of WHOI’s accounting system to properly track, account for, segregate
   and report on equipment purchased using federal funds, including equipment purchased with
   ARRA funds.

DCAA issued two audit reports to separately address the first two audit objectives, and a
memorandum to address the third objective. We have attached the two DCAA audit reports on
COL’s accounting system and proposed budget for the OOI project and DCAA’s memorandum
on WHOI’s accounting system for equipment to this memo. The audits were performed in
accordance with generally accepted government auditing standards. DCAA’s findings and
recommendations are summarized below.

DCAA’s Accounting System Report on COL Identified CAS Noncompliance

DCAA reported that COL’s accounting system is adequate for accumulating and billing costs on
its government contracts, in that COL adequately accumulates, segregates, and reports the use of
its ARRA and other federal funds. DCAA also reported that COL adequately monitors its
subawardees to ensure subawardee compliance with ARRA and other federal requirements and
with the terms and conditions of their subaward agreements. However, in the Other Matters to
be Reported Section, 4, DCAA reported that NSF is the cognizant federal agency for COL, and

3
  DCAA’s audit scope did not include a review of COL’s compliance with ARRA requirements for reporting the
number of jobs created or retained.
4
  DCAA’s Memorandum to Consortium for Ocean Leadership on CAS Noncompliance, dated April
 20, 2009, was included in NSF OIG Report No. OIG_10-1-015, Audit Report on Consortium of
Ocean Leadership’s FY 2007 (4 months) Incurred Costs, dated September 30, 2010.




                                                      2
that COL is subject to Cost Accounting Standards (CAS). Therefore, NSF is required to ensure
that COL has an adequate CAS Disclosure Statement describing its cost accounting practices. 5
Nevertheless, NSF did not issue a determination of adequacy or compliance of COL’s Disclosure
Statement, which is a cognizant federal agency responsibility, 6 nor has NSF requested DCAA to
review COL’s Disclosure Statement for adequacy or compliance.

We previously issued NSF an Alert Memorandum dated March 31, 2010, NSF Contract
Administration Issues at the Consortium of Ocean Leadership, that informed NSF that, since the
inception of COL’s CAS covered contract, COL and Joint Oceanographic Institutions have
submitted six Disclosure Statements to NSF. However, none of these Disclosure Statements
have been audited by DCAA or formally approved by NSF. We noted that we were mainly
concerned with the four Disclosure Statements effective on and after the merger of JOI and
CORE (Consortium for Oceanographic Research and Education) to form COL effective June 1,
2007. We concluded that NSF should, as soon as possible, request an audit of the four JOI/COL
Disclosure Statements and also request COL to provide cost impact proposals explaining its
disclosed accounting practice changes.

DCAA also reported that COL’s G&A (General & Administrative) allocation base, used to
allocate its G&A expenses (those expenses which are for the general management and
administration of the business unit as a whole), is in noncompliance with Cost Accounting
Standards (CAS) 410. This standard




DCAA recomputed COL’s G&A rate using a value-added base and calculated a 7-month cost
impact on COL’s CAS-covered contract, which showed a total of $57,712 in increased costs
allocable to Contract OCE-0352500 for FY 2010 through April 30, 2010. Other NSF awards,
which would receive decreased G&A costs were not identified by DCAA. 7 However, DCAA
reported that there could be a material impact to the government in future periods because the
merger brought additional work from other organizations and other federal agencies into the total
activity of COL. Therefore, the risks of misallocating G&A costs between NSF programs and
different government agencies will increase as COL takes on more business and other programs
with NSF and with other federal and non-federal organizations. DCAA is unable to determine
the full impact of the CAS noncompliance because DCAA did not receive a cost impact proposal

5
  COL is required to follow CAS because its NSF Contract No. OCE-0352500, System Integration Contractor for
the Integrated Ocean Drilling Program, dated September 2003, includes the FAR clause that incorporates CAS
requirements into the contract. Therefore, COL’s CAS Disclosure Statement is applicable to all of COL’s federal
contracts and awards, including all of COL’s cooperative agreements with NSF.
6
  Federal Acquisition Regulations (FAR) 30.202-6).
7
  DCAA performed an audit of JOI/COL’s claimed incurred costs under NSF Contract No. OCE-0352500. DCAA’s
audit results were contained in two incurred cost reports that were transmitted to NSF under OIG Report Nos. OIG-
10-1-014 and OIG-10-1- 015 dated September 30, 2010.




                                                       3
from COL covering all its contracts and awards from the date of the merger until the completion
of COL’s NSF CAS-covered contract, expected in September 2013.
.

After a finding of noncompliance by NSF’s Contracting Officer, COL will be required to submit
a cost impact proposal from the time of NSF’s required date for COL to change its G&A base to
comply with CAS until the completion of COL’s CAS-covered contract (expected in September
2013). This cost impact proposal should monetize the impact of COL’s change in accounting
practice (i.e. change to a value-added G&A base) on all COL’s contracts and awards.


DCAA’s OOI Construction Proposal Report on COL Found Significant Questioned Costs

In its audit of COL’s OOI construction proposal, DCAA questioned a total of $88,184,480
because the proposed budget was not prepared to accordance with applicable Cost Accounting
Standards or appropriate provisions of 2 CFR Part 230 (federal cost principles for non-profit
organizations). However, DCAA determined that COL submitted adequate supporting data and
believes that the proposed budget is an acceptable basis for negotiation of a fair and reasonable
price. DCAA told us that they made this judgment because they considered the proposal
adequate to audit (only after many discussions over time with COL and its subawardees UW and
WHOI), and received sufficient data from COL to enable them to quantify the impact of the
noncompliances on this proposal--most significantly the $88 million of questioned contingency
provisions discussed below.

COL’s proposed and DCAA’s questioned costs by funding source are as follows:

                         Proposed        Questioned           Difference    Report Ref
          ARRA                           $34,799,844                        Exhibit A
          MREFC                           53,384,636                        Exhibit B
          Total                          $88,184,480

The questioned costs are identified by cost category below.

Cost Element          ARRA                   MREFC                   Total Amount
Contingencies         $34,205,053            $53,913,795             $88,118,848
Subawards                 168,291                (16,868)                151,423
G&A Expenses              442,860               (431,879)                  10,981
Direct Labor               (12,394)               (60,918)                (73,312)
Fringe Benefits             (3,966)              (19,494)                 (23,460)
Total                 $34,799,844            $53,384,636             $88,184,480

( ) denotes upward adjustment, i.e. an increase in costs




                                                4
Contingency Provisions: DCAA noted in Exhibit A that the $105.93 million of funded ARRA
costs included $34,205,053 of proposed contingencies. DCAA noted in Exhibit B that the
$280.49 million of proposed MFEFC costs included $53,913,795 of proposed contingencies.
DCAA questioned the entire $88,118,848 of proposed contingencies based on 2 CFR Part 230,
Appendix B, Paragraph 9, Contingency Provisions, which states “contributions to a contingency
reserve or any similar provisions made for events the occurrence of which cannot be foretold
with certainty as to time, intensity, or with an assurance of their happening, are unallowable.”
DCAA noted that the proposed contingency costs were based on risk estimates for such factors
as weather, vendors going out of business, a ship breaking down, and other unforeseen events.
NSF required the awardee to build contingency provisions into the proposed budget, and NSF
reviewed and accepted contingencies as part of its Variant FDR (Final Design Review), which
served as a basis for COL’s proposed budgets for OOI.

DCAA stated that COL classified contingency costs in the proposed budgets as equipment costs,
but are not necessarily equipment. Contingency costs were proposed to ensure that COL will not
overrun the budget. COL officials told DCAA that contingency costs can only be used if the
awardee overruns the budget due to unforeseeable factors. However, DCAA noted that COL can
draw down the contingency funds the same as normal funds and DCAA found no controls or
technical barriers to prevent COL from drawing down these funds and spending them without
NSF approval. DCAA also noted that the awardee excluded the proposed contingency costs
from its proposed G&A allocation base.

COL does not concur with DCAA’s questioning of contingency costs. The awardee stated that
the incorporation of contingency in the proposed budget was directed by NSF.


Subawards: The direct labor rates and the application of indirect rates budgeted for two of
COL’s major subawardees for OOI construction (UW and WHOI) were audited by DCAA.
DCAA noted the cost impact of the proposed and questioned rates for both subawardees in Note
6 -- Exhibit A for ARRA and Exhibit B for MREFC, as follows:



 Subawardee        ARRA                ARRA                MREFC               MREFC
                   Proposed            Questioned          Proposed            Questioned
UW                                     ($107,610)                              ($243,260)
WHOI                                    $275,901                                $226,392

The negative cost questioned (i.e. increase in cost proposed) for UW was due to UW’s revised
proposed budget which included revised fringe benefit rates. The costs questioned for WHOI are
based on the results of DCAA’s audit at WHOI which questioned direct labor rates. DCAA
used the COL’s proposed subawardee labor hours and the applicable indirect rates to compute its
questioned costs. COL concurs with DCAA’s audit findings for the two subawardees.




                                               5
G&A Expenses: COL proposed a total of                 of G&A expenses under ARRA (Exhibit
A) and             of G&A expenses under MREFC (Exhibit B). DCAA questioned $442,860
under ARRA and ($431,879) under MREFC for a total of $10,981 questioned G&A expenses.
These G&A expenses were questioned due to a more current NICRA (negotiated indirect cost
rate agreement) rate, the CAS 410 noncompliance discussed above under Adequacy of COL’s
Accounting System, and an audit-determined increase in direct labor and fringe benefit costs for
OOI discussed below.

Of the $442,860 questioned under ARRA, $135,093 of this was due to a more current NICRA rate
applied to the audit-determined base costs for OOI ARRA. The awardee proposed the June 2008
NICRA rate of          negotiated with NSF, but DCAA used the more current September 2009
NICRA rate of        .

DCAA then adjusted the G&A base in the NICRA and in the OOI proposal to a CAS-compliant
value-added base to develop an audit determined rate on value-added cost input of  . Under
ARRA, this resulted in DCAA questioning $307,768 due to the CAS noncompliance. All of the
($431,879) questioned under MREFC was due to the CAS noncompliance.

Regarding the CAS noncompliance, DCAA determined that the awardee’s proposed G&A
allocation base is not compliant with CAS 410, as discussed above under Adequacy of COL’s
Accounting System. DCAA also noted that the awardee excluded contingency costs from the
proposed G&A allocation base. Therefore, DCAA developed an audit-determined G&A base and
rate based on actual awardee data for first 10 months of FY 2010. DCAA removed all subcontract
costs from the base and then annualized the pool and base in computing an audit-determined base
of          DCAA applied this rate to audit-determined value-added base costs for OOI of
            for ARRA and                 for MREFC in computing audit-determined G&A costs of
            and             respectively. DCAA then subtracted audit-determined G&A costs
from proposed G&A costs in computing G&A costs questioned due to the CAS noncompliance.

We noted that DCAA’s audit-determined G&A rate is an estimate based only on 10 month year-to-
date data for FY 2010 and does not consider NSF’s expected funding in the out years FY 2011 and
beyond. To obtain a more accurate general dollar magnitude impact on COL’s OOI construction
proposal, a cost impact proposal from COL is necessary.

The awardee does not concur with DCAA’s questioning the G&A base and associated rate using
CAS as the criteria. The awardee stated that the treatment of the G&A base is in accordance with
the indirect rate agreement that COL negotiated with NSF.


Direct Labor: DCAA questioned (increased) direct labor costs by ($12,394) for ARRA and
($60,918) for MREFC due to differences found in the proposed base hourly labor rates and the
current payroll rates. See DCAA’s audit report (Schedule A for ARRA and Schedule B for
MREFC) for the questioned labor rates and summaries of questioned costs by labor category and
award year.




                                               6
DCAA traced the hours from the Variant FDR performed by NSF to ensure they matched and
found no exception. COL’s proposed base hourly labor rates were based on category average
payroll data that was current at the time of proposed budget preparation. However, DCAA found
differences between COL’s proposed and its more current (at the time of the audit) payroll rates
effective for FY 2010. DCAA adjusted the hourly labor rates accordingly and computed
questioned costs by applying the difference in hourly rates to the proposed hours.

For the out-years of the project, the awardee used Office of Management and Budget (OMB)
escalation rates which DCAA determined to be reasonable. The questioned hourly rates/direct
labor costs in the out-years were due to DCAA’s adjustment of the proposed first-year rates
under ARRA.

The awardee concurs with DCAA’s audit findings for direct labor.

Fringe Benefits: DCAA questioned (increased) fringe benefits costs by ($3,966) for ARRA and
($19,494) for MREFC due to applying COL’s proposed unaudited fringe benefits rate for FY
2009 of        to the questioned (increased) direct labor costs of ($12,394) for ARRA and
($60,918) for MREFC.

The awardee concurs with DCAA’s audit findings for fringe benefits.




Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support:

   1. Request DCAA to review all JOI/COL’s Disclosure Statements effective on and after the
      merger of JOI and CORE to form COL (on June 1, 2007) for adequacy and compliance,
      and provide COL with a letter of determination of adequacy and compliance of the
      Disclosure Statements based on the results of audit. To facilitate DCAA’s Disclosure
      Statement reviews, NSF should request COL to provide cost impact proposals explaining
      its disclosed accounting practice changes.

   2. Require COL to change its G&A allocation base to a CAS-compliant base and submit to
      NSF a general dollar magnitude cost impact proposal which identifies the shift of costs
      between all COL’s contracts and awards. This cost impact proposal should monetize the
      impact from the required date of the change until the completion of COL’s CAS-covered
      contract (expected in September 2013).




                                               7
   3. Request DCAA to review COL’s cost impact proposal and, upon determination that the
      data are acceptable for negotiating the cost impact due to the change, negotiate the cost
      impact with COL and require COL to revise its proposed budgets accordingly.

   4. Require COL to remove unallowable contingency provisions from its proposed budgets
      for OOI and discontinue NSF’s practice of funding contingencies. Instead, NSF should
      require its awardee to submit proposed budgets supported by auditable current, accurate
      and complete cost data, request independent audits of the awardee’s proposed budgets
      prior to funding, and base NSF funding on the results of audit.

   5. Require the awardee to revise its proposed budgets for OOI for subaward, direct labor
      and fringe benefit costs questioned consistent with DCAA’s audit findings.

In accordance with OMB Circular A-50, please coordinate with our office during the six-month
resolution period to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that the recommendation has been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the OOI Program Director and the Director of
Large Facilities Projects. The responsibility for audit resolution rests with DACS. Accordingly,
we ask that no action be taken concerning the report’s findings without first consulting DACS at
(703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Evaluated the qualifications and independence of the auditors;
   •   Monitored the progress of the audit at key points;
   •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
       audit progress, findings and recommendations;
   •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
       Auditing Standards and Office of Management and Budget Circulars; and
   •   Coordinated issuance of the audit report.

DCAA is responsible for the attached audit reports on COL and the conclusions expressed in the
reports. The NSF OIG does not express any opinion on COL’s accounting system, COL’s OOI
construction proposal, or the conclusions presented in DCAA’s audit reports and memorandum.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or David Willems
at (703) 292-4979.




                                               8
Attachments:


1. DCAA Audit Report No. 6171-2009J17740004, Audit Report of Accounting System for
Consortium of Ocean Leadership, Inc., dated July 20, 2010.

2. DCAA Audit Report No. 6171-2009J21000001, Report on Audit of Proposed Budget for the
Ocean Observatories Initiative for Consortium of Ocean Leadership, Inc., dated September 14,
2010.

3. DCAA’s memorandum on Request for Additional Information Pertaining to the Woods Hole
Oceanographic Institute Audit of the Part of the Cost Reimbursable Proposal – Audit Report No.
02171-2010C27000001 – Proposal Submitted in Response to NSF 03-576, dated September 9,
2010.



cc:    Martha Rubenstein, CFO and Director BFA
       Mary Santonastasso, Division Director, DIAS
       Jean McGovern, OOI Program Director, Division of OCE
       Mark Coles, Director Large Facilities Projects




                                              9
